           Review of Michigan Guaranty Agency’s
                    Year 2000 Readiness




     MANAGEMENT INFORMATION REPORT




                       Control Number ED-OIG/A05-90047
                                 October 1999




Our mission is to promote the efficient             U.S. Department of Education
and effective use of taxpayer dollars               Office of Inspector General
in support of American education                  Chicago, Illinois
                                NOTICE

   Statements that management practices need improvement, as well as other
 conclusions and recommendations in this report, represent the opinions of the
Office of Inspector General. Determination of corrective action to be taken will
be made by appropriate Department of Education officials. In accordance with
the Freedom of Information Act (5 U.S.C. §552), reports issued by the Office of
   Inspector General are available, if requested, to members of the press and
   general public to the extent information contained therein is not subject to
                              exemptions in the Act.
                         UNITED STATES DEPARTMENT OF EDUCATION
                                           OFFICE OF INSPECTOR GENERAL

                                                                                                    THE INSPECTOR




MEMORANDUM


 TO:          Greg Woods
              Chief Operating Officer




SUBJECT: Review of Michigan Guaranty Agency's Year 2000 Readiness, Control Number


Attached is our Management Information Report that informs you of the results of our review of
Michigan Guaranty Agency's (Michigan) Year 2000 readiness. This Management Information
Report is intended to provide information for decision makers and is not an audit or investigative
report. Michigan relies on several service providers for systems, services, and technology. Our
objective was to ensure that Michigan is adequately monitoring the Year 2000 readiness efforts of its
service providers and those systems that affect it. Our evaluation indicated that Michigan is


In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by the Office
of Inspector General are available, if requested, to members of the press and general public to the



If you have any questions concerning this report, please call Richard J. Dowd, Regional Inspector



Attachme




                                    400 MARYLAND AVE., S.W. WASHINGTON, D.C.
            Our mission es to ensure equal access to cducation and to promote educational excellence throughout the
Table of Contents
Review of Michigan Guaranty Agency’s Year 2000 Readiness
Control Number ED-OIG/A05-90047


Executive Summary                                          1


On-Site Review Observations                                2


Evaluation of Testing                                      3


Evaluation of Contingency Planning                         4


Risk Analysis                                              4


Conclusion                                                 6


Appendix

      Background                                           1

      Objectives, Scope, and Methodology                   1
ED-OIG Management Information Report CN ED-OIG/A05-90047
Review of Michigan Guaranty Agency’s Year 2000 Readiness

                                 Executive Summary
Our evaluation indicated that the Michigan Guaranty Agency (Michigan) is adequately monitoring the
progress of its service providers’ Year 2000 readiness efforts. Michigan relies on several service
providers for all of its systems, services, and technology. Therefore, Michigan’s Year 2000 readiness
efforts consist of monitoring the progress of its service providers in achieving Year 2000 readiness for
those systems that affect Michigan.

Michigan contracts with USA Group for guarantee services and automated information processing. The
Michigan Department of Treasury (Treasury) performs a portion of the post-default loan collection
activity for Michigan using Treasury’s system and an outside collection agency. Treasury also provides
Michigan with equipment and software. The Michigan Department of Management and Budget (DMB)
provides Michigan with several services.



    MGAreport.fei.wpd


The U.S. Department of Education (ED) has a responsibility to ensure that all of its computer systems
and the interfaces between them and the systems of its trading partners are ready to handle data that
includes dates both before and after January 1, 2000. ED has issued various publications to reinforce
the seriousness of Year 2000 compliance and the critical milestone dates for each of the five phases set
forth by the Office of Management and Budget and the General Accounting Office. The designated
phases for a Year 2000 readiness plan are awareness, assessment, renovation, validation, and
implementation (with on-going contingency planning throughout the entire project).

We conducted on-site field work at the Michigan Guaranty Agency in Lansing, Michigan from July 13 -
15, 1999, and at USA Group in Fishers, Indiana from July 20 - 21, 1999. We examined
documentation and interviewed officials at Michigan and USA Group supporting Michigan’s Year 2000
monitoring efforts and USA Group’s Year 2000 readiness efforts. We also conducted telephone
interviews with Booz·Allen & Hamilton officials and reviewed their reports. Booz·Allen & Hamilton is
the Year 2000 readiness evaluation contractor for ED’s Guarantor and Lender Oversight Service
(GLOS). This Management Information Report is intended to provide information for decision makers
and is not an audit or investigative report.




                                                 Page 1
ED-OIG Management Information Report CN ED-OIG/A05-90047
Review of Michigan Guaranty Agency’s Year 2000 Readiness

                         On-Site Review Observations
Michigan relies on several service providers for all systems, services, and technology to perform its
functions as a guaranty agency. Michigan accesses and updates data on the systems of these service
providers but Michigan does not own or maintain any of the systems that are critical to its operations.
However, Michigan is responsible for monitoring the progress of these providers in achieving Year
2000 readiness for those systems that affect it.

Management                      Michigan is a component of the Michigan Higher Education Assistance
Approach                        Authority which is part of Treasury. Michigan is the designated
                                guarantor for the State of Michigan with respect to the Federal Family
                                Education Loan (FFEL) Program. Since Michigan does not own or
                                maintain any of its systems, Michigan’s approach to Year 2000
                                readiness is to monitor the efforts of its service providers.

                                Michigan obtained information and periodic updates on the Year 2000
                                readiness efforts of its service providers. This information included
                                certifications of Year 2000 compliance, Year 2000 project plans for its
                                service providers, and lists of all systems involved in guarantee
                                processing,. Michigan also contacted all of its school, lender, and
                                servicer partners for basic information on their Year 2000 readiness.

USA Group Provides              Michigan contracts with USA Group for most guarantee services and
Most Guarantee                  automated information processing. This includes loan origination,
Services                        disbursement, lender repayment, and the first 60 days of post-default
                                loan collection. USA Group owns and maintains the systems which
                                Michigan accesses from its offices in Lansing, Michigan. USA Group is
                                a nonprofit company that provides a wide array of education loan
                                services including guarantor servicing through its USA Group Guarantee
                                Services affiliate. USA Group has offices in Indianapolis and Fishers,
                                Indiana.

Treasury Provides               After the first 60 days of post-default loan collection, Michigan assigns
Some Post-default               accounts to Treasury for collection. Treasury owns and maintains the
Loan Collection and             system that it and GC Services (its contracted collection agency) use
Other Services                  for collection activities. Treasury also provides Michigan with
                                equipment and software, including the local area network, personal
                                computers (hardware and software), e-mail system, embedded
                                technology, and electronic funds transfer.

DMB Provides
Several Services


                                                 Page 2
ED-OIG Management Information Report CN ED-OIG/A05-90047
Review of Michigan Guaranty Agency’s Year 2000 Readiness


DMB provides
Michigan with facilities
management,
telecommunications,
payroll processing, and
security services.


                             Evaluation of Testing
We compared the documentation Michigan maintained to the status of Year 2000 efforts at USA
Group, Treasury, and DMB. Our evaluation indicated that Michigan was adequately monitoring the
Year 2000 readiness efforts of its service providers and those systems that affect it.

Michigan Relying on           Michigan is relying on its service providers to complete the renovation,
Testing Performed by          validation, and implementation phases of their Year 2000 readiness
Service Providers             efforts. Michigan is monitoring the progress of USA Group, Treasury,
                              and DMB in completing Year 2000 readiness. Michigan submitted its
                              Guaranty Agency Year 2000 Status Update - June 1999 to
                              Booz·Allen & Hamilton, indicating that the validation and
                              implementation phases were 90% complete. The 10% that remains is
                              generally related to embedded technology in nonessential equipment for
                              which DMB is responsible.

Booz·Allen &                  The Year 2000 readiness of USA Group’s systems is critical to
Hamilton Reviewed             Michigan. At the request of GLOS, Booz·Allen & Hamilton conducted
USA Group Year                a site visit to USA Group’s offices in Fishers, Indiana in January 1999,
2000 Testing                  which included an evaluation of USA Group’s system testing
Procedures                    procedures. Booz·Allen & Hamilton concluded that USA Group’s
                              system testing was adequate even though strict independent verification
                              and validation was not used. According to a Booz·Allen & Hamilton
                              official, USA Group’s testing was extensive and included user
                              acceptance sign-off that renovated programs were working properly.

Michigan Is Using the         USA Group certified the system that Michigan currently uses for
USA Group System              guarantee processing as Year 2000 compliant. Part of this system is
                              new and was developed to be Year 2000 compliant. The remainder of
                              the system is a legacy system that was renovated and tested for Year
                              2000 compliance.

Treasury Certified            Treasury certified that the loan collection system used for Michigan’s
that Loan Collection          post-default collection activity is Year 2000 compliant. We were


                                              Page 3
ED-OIG Management Information Report CN ED-OIG/A05-90047
Review of Michigan Guaranty Agency’s Year 2000 Readiness

System Is Year 2000        informed that the collection system was developed by an outside
Compliant                  collection agency to be Year 2000 compliant.


Michigan Is
Monitoring DMB
Regarding Year 2000
Compliance

Michigan is monitoring
DMB regarding the
Year 2000 compliance
of services provided by
DMB. DMB has
contacted vendors
providing services and
equipment used to
support Michigan
regarding Year 2000
compliance.


                Evaluation of Contingency Planning
Adequate Planning         Year 2000 contingency planning addresses the steps needed to ensure
Methodology               the continuity of an agency’s core business processes in the event of a
Developed                 Year 2000-induced system failure. Michigan developed written
                          contingency plans for its critical systems. These contingency plans
                          incorporate the contingency plans provided by its service providers.

                          We reviewed the Michigan and USA Group contingency plans and they
                          address the critical systems used by Michigan. Michigan is monitoring
                          USA Group’s contingency planning to assess the affect on its
                          contingency plans.

                          Michigan also relied on information from Treasury and DMB to develop
                          its contingency plans. Michigan is also monitoring the contingency
                          planning of these service providers to assess the effect on its own
                          contingency plans.

                          We concluded that Michigan’s contingency plan methodology is
                          adequate.



                                           Page 4
ED-OIG Management Information Report CN ED-OIG/A05-90047
Review of Michigan Guaranty Agency’s Year 2000 Readiness

                                          Risk Analysis
Risk Analysis Defined             A risk analysis assesses and quantifies uncertainties. With regard to the
                                  Year 2000, these inherent uncertainties or risks are date-related events
                                  (or non-events) that would have a negative effect on or endanger a core
                                  business function or critical system of the organization. Michigan’s core
                                  business function is the FFEL Program.

Development of High               Booz·Allen & Hamilton, GLOS’s technical support contractor,
Impact Risk List                  developed a list of high impact risks based on areas identified by (1)
                                  individual and overall risk assessments (via telephone interviews), (2)
                                  GLOS management, and (3) industry best practices. Booz·Allen &
                                  Hamilton organized the resulting list into risk categories and
                                  subcategories. We added one subcategory to include service provider
                                  certifications. All items listed were identified as high impact risks to
                                  both Michigan and GLOS. We scored each risk category and
                                  subcategory using the following scoring system. The scoring ranged
                                  from minus (-) to plus (+) (see legend in table below). Minus indicates
                                  that Michigan has not taken steps to mitigate the associated risk. Plus
                                  indicates that Michigan appears to be successfully mitigating Year 2000
                                  risks. To receive a plus score, Michigan had to demonstrate actions
                                  taken to eliminate or reduce the effect or likelihood of a risk/threat
                                  before the time horizon to failure for that subcategory.

       HIGH RISK CATEGORIES AND                         Michigan      RISK MITIGATED BY SERVICER
            SUBCATEGORIES
MANAGEMENT
Organization/Project Office. Upper management              +        USAG
support. Unified message.
Project plan and schedule in place, in use, and            µ        USAG
running as planned. (Sufficient progress by
phase. Little or no slippage.)
TECHNICAL
Inventory (hardware, software, interfaces, and             µ        USAG        Treasury        DMB
embedded technology) completed.
Appropriate designation of mission critical                +        USAG
systems. FFEL Program systems designated as
mission critical.
Renovation approach. Standard methodology - used           µ        USAG
normal system development life cycle in approaching
Year 2000 project. Renovation decisions based on
analysis, such as impact studies.
Testing approach. Evaluation of methods, plans, and        µ        USAG        Treasury        DMB
results. All levels of testing addressed: unit,

                                                      Page 5
ED-OIG Management Information Report CN ED-OIG/A05-90047
Review of Michigan Guaranty Agency’s Year 2000 Readiness

integration, systems, acceptance, and interfaces (true
tests versus mimic tests). Used adequate testing
procedures (regression, performance, stress, and
forward and backward time). Tested critical Year 2000
dates.
Data exchange issues resolved.                                µ          USAG
Provided Michigan with Year 2000 certifications for           µ          USAG        Treasury        DMB
systems and services.
Formal process for obtaining Year 2000 certifications         +
from key service providers.
Contingency planning (Plans are a priority and are in         µ          USAG        Treasury        DMB
place).
*Scoring Legend                                           Servicer Legend
   -    No risk mitigation activity has occurred.            USAG       USA Group
   -/0 Efforts have been initialized in order to             Treasury Michigan Dept. of Treasury
        mitigate risks.                                      DMB        Michigan Dept. of Management and Budget
   0 Appears to be moderately mitigating risks.
   0/+ Appears to be satisfactorily mitigating risks.
   + Appears to be successfully mitigating risks.
   µ Michigan adequately monitored its service
        providers for this area.




                                                         Page 6
ED-OIG Management Information Report CN ED-OIG/A05-90047
Review of Michigan Guaranty Agency’s Year 2000 Readiness

                                  Conclusion
Michigan is adequately   Our evaluation of Michigan’s Year 2000 readiness indicates that the
monitoring the Year      entity is adequately monitoring the progress of service providers in
2000 readiness of its    achieving Year 2000 readiness for those systems that affect it.
servicing entities




                                         Page 7
                                                                                         APPENDIX


Background

ED is in the process of ensuring that all of its computer systems and the interfaces between them and the
systems of its trading partners are Year 2000 compliant. Year 2000 compliance (or readiness) refers to
the capability of a product to correctly process, provide, and/or receive data containing dates from,
into, and between the 20th and 21st centuries. A system’s ability to accurately process date and time
data is crucial to continuing a business’ normal operations beyond the turn of the century. Failure to
address this issue could result in erroneous system execution or system failure.

ED issued Dear Colleague Letter 98-G-306 to guaranty agencies to reinforce the seriousness of
Year 2000 compliance. It advised guaranty agencies of the potential impact of the Year 2000 problem
and the importance of an aggressive approach to ensure that the FFEL Program will continue
unimpaired. The letter further emphasized meeting the critical milestone dates for each of the five phases
set by the Office of Management and Budget and General Accounting Office. The designated phases
for a Year 2000 readiness plan are awareness, assessment, renovation, validation, and implementation
(with ongoing contingency planning throughout the entire project).

In July 1998, ED retained Booz·Allen & Hamilton to assess the Year 2000 readiness of the guaranty
agencies. In September 1998, Booz·Allen & Hamilton conducted telephone interviews with all 36
guaranty agencies. The results of those interviews, as well as a determination of the ability of guaranty
agencies to mitigate their Year 2000 risks were presented to ED. As part of ED’s ongoing efforts to
assure the Year 2000 compliance of guaranty agencies in the FFEL Program, Booz·Allen & Hamilton
subsequently conducted an on-site Year 2000 review at USA Group from January 24 - 29, 1999. This
included a review of the USA Group systems which Michigan uses for automated information
processing.

GLOS contracted with Booz·Allen & Hamilton to conduct a second round of the Year 2000 readiness
assessments at select guaranty agencies. The Office of Inspector General (OIG) supplemented
GLOS’s activities to ensure Year 2000 compliance by evaluating Michigan’s Year 2000 readiness.

Objectives, Scope, and Methodology

We evaluated Michigan’s Year 2000 plans, milestones, and progress using methodology in Booz·Allen
& Hamilton Reviewer’s Guide Guaranty Agency Ongoing Year 2000 On-site Readiness Review
(6/99). We modified this methodology because Michigan relies on several service providers for
systems and services. Our objective was to assess whether Michigan is adequately monitoring the Year
2000 readiness efforts of these service providers in achieving Year 2000 readiness for those systems
that affect it. Given the objective of our review, the team only evaluated Michigan’s Year 2000
management plan and any documentation supporting Michigan’s Year 2000 efforts. This evaluation
included comparing the documentation Michigan maintained to the status of Year 2000 efforts at USA
Group, Treasury, and DMB. All work was performed in accordance with ED-OIG Policies and
Procedures Manual Chapter 2310: Alternative Services and Products. Therefore, we did not (1) have


                                                 Page 2
                                                                                          APPENDIX


a survey phase, (2) perform an internal controls review, or (3) assess the reliability of any computer
processed data.

We conducted on-site field work at the Michigan Guaranty Agency in Lansing, Michigan from July 13 -
15, 1999,and at USA Group in Fishers, Indiana from July 20 - 21, 1999. We examined documentation
and interviewed officials at Michigan and USA Group supporting Michigan’s Year 2000 monitoring
efforts and USA Group’s Year 2000 readiness efforts. We also conducted telephone interviews with
Booz·Allen & Hamilton officials and reviewed their reports. We did not perform work that would
provide assurance that Michigan’s Year 2000 compliance plan will work, only that it met or exceeded
milestones.

This Management Information Report is intended to provide information for decision makers and is not
an audit or investigative report. We conducted our review according to government auditing standards
applicable to the limited scope review described.




                                                 Page 3
                       REPORT DISTRIBUTION LIST
                    CONTROL NUMBER ED-OIG/A05-90047

Action Official                                                         No. of Copies
Greg Woods                                                                   Original
Chief Operating Officer
Office of Student Financial Assistance
U. S. Department of Education

Other ED Officials
Year 2000 Project Director
Office of the Chief Information Officer                                         1

Barry Morrow, General Manager, Financial Partners, Office of Student            1
Financial Assistance

Director, Office of Public Affairs                                              1

Linda Paulsen, Acting CFO, Office of Student Financial Assistance        Electronic copy

Secretary’s Regional Representative - Region V, Chicago                         1

ED-OIG Officials
Inspector General                                                        Electronic Copy

Deputy Inspector General                                                 Electronic Copy

Assistant Inspector General for Audit                                    Electronic Copy

Assistant Inspector General for Investigations                           Electronic Copy

Assistant Inspectors General for Operations                            Electronic Copies (2)

Counsel to the Inspector General                                         Electronic Copy

Planning, Analysis, and Management Services                              Electronic Copy

Audit Services                                                                  1

Regional Inspector General for Investigations - Chicago                         1

Area Audit Managers
   Atlanta, Dallas, Kansas City, New York, Philadelphia, Sacramento,   Electronic Copies (7)
   and Washington

Region V Audit Office                                                           2
